No. 19-661
IN THE SUPREME COURT OF THE UNITED STATES
_________________
MYNOR ABDIEL TUN-COS, ET AL., PETITIONERS
v.
B. PERROTTE, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 21st day of February 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 2,779 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
February 21, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 21, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0661
TUN-COS, MYNOR ABDIEL, ET AL.
B. PERROTTE, ET AL.

SIMON Y. SANDOVAL-MOSHENBERG
LEGAL AID JUSTICE CENTER
6066 LEESBURG PIKE
SUITE 520
FALLS CHURCH, VA 22041
703-720-5605
SIMON@JUSTICE4ALL.ORG
DAVID M. ZIONTS
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001
202-662-6000

